NO. 2020-C-0461
COURT OF APPEAL, FOURTH CIRCUIT
STATE OF LOUISIANA

REGINA B. HEISLER, INDIVIDUALLY AND AS SUCCESSION
REPRESENTATIVE/EXECUTRIX OF THE SUCCESSION OF
FREDERICK P. HEISLER
VERSUS
GIROD LOANCO, LLC

IN RE:

REGINA B. HEISLER, INDIVIDUALLY AND AS SUCCESSION
REPRESENTATIVE/EXECUTRIX OF THE SUCCESSION OF
FREDERICK P. HEISLER

APPLYING FOR: SUPERVISORY WRIT
DIRECTED TO: HONORABLE ETHEL SIMMS JULIEN
CIVIL DISTRICT COURT, ORLEANS PARISH
DIVISION "N-8", 2007-03249

WRIT DENIED.
Relators seek review of trial court's denial of their Motion for New Trial.
We deny the writ.
New Orleans, Louisiana this 13111 day of October, 2020.

DLD

JUDGE DANIEL L. DYSART

JCL
JUDGE JOY COSSICH LOBRANO
PAS'

JUDGE PAULA A. BROWN

REGINA B. HEISLER,
INDIVIDUALLY AND AS
SUCCESSION
REPRESENTATIVE/EXECUTR
IX OF THE SUCCESSION OF
FREDERICK P. HEISLER

NO. 2020-C-0461
COURT OF APPEAL
FOURTH CIRCUIT
STATE OF LOUISIANA

VERSUS
GIROD LOANCO, LLC
(CIVIL DISTRICT COURT,
ORLEANS PARISH# 2007-03249)
Division "N-8"

* * * * * * *

ORDER
* * * * * * *

On September 23, 2020, we issued an order for Relators to supplement the
record with the notice of intent, the signed order setting a return date, the
judgment, and the pleadings upon which the ruling was based. To date, only the
judgment has been received.
Accordingly, Relators are ordered to supplement the record with the missing
documents no later than October 14, 2020. Failure to fully comply will result in a
dismissal of the writ application.
New Orleans, Louisiana this 7th day of October, 2020.
DLD

JUDGE DANIEL L. DYSART

JCL
JUDGE JOY COSSICH LOBRANO
PAB

JUDGE PAULA A. BROWN

491813

